Office of Material Loss Reviews
Report No. IDR-11-001


In-Depth Review of the Failure of
George Washington Savings Bank, Orland
Park, Illinois




                                  October 2010
                                     Executive Summary

                                     In-Depth Review of the Failure of George
                                     Washington Savings Bank, Orland Park, Illinois
                                                                                    Report No. IDR-11-001
                                                                                            October 2010

Why We Did The Audit

The Illinois Department of Financial and Professional Regulation (IDFPR) closed George Washington
Savings Bank (GWSB), Orland Park, Illinois on February 19, 2010, and named the FDIC as receiver. On
March 12, 2010, the FDIC notified the OIG that George Washington’s total assets at closing were
$437 million and the estimated loss to the Deposit Insurance Fund (DIF) was $141.3 million. As of
September 3, 2010, the estimated loss to the DIF had decreased to $136.5 million.

This assignment was initiated as a material loss review. However, on July 21, 2010, the President signed
into law the Dodd-Frank Wall Street Reform and Consumer Protection Act (Financial Reform Act),
which amends section 38(k) of the Federal Deposit Insurance Act (FDI Act). The Financial Reform Act
increases the material loss review (MLR) threshold from $25 million to $200 million for losses that occur
for the period January 1, 2010 through December 31, 2011. Further, the Financial Reform Act calls for
the OIG to perform in-depth reviews of failures when losses are not material but they involve unusual
circumstances. At the time the Financial Reform Act was enacted, our fieldwork and the draft report
were substantially complete. As a result, although the estimated loss no longer met the threshold
requiring an MLR, we decided to complete the audit and issue this report.

Consistent with both Acts, the objectives of this review were to (1) determine the causes of GWSB’s
failure and the resulting loss to the DIF and (2) evaluate the FDIC’s supervision of GWSB, including the
FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.


Background
GWSB, established as a federal savings and loan in 1890, converted to a state-chartered savings bank in
1993 and was wholly-owned by George Washington Bancorp, Inc., a one-bank holding company. The
bank was headquartered in Orland Park, Illinois and had three branch offices located in the Chicago
metropolitan area. In 2002, after a change in management including Board Members and bank officers,
GWSB changed its lending focus from 1-4 family residential real estate loans to acquisition,
development, and construction (ADC) and other commercial real estate (CRE) loans.


Audit Results

Causes of Failure and Loss

GWSB failed because of losses associated with CRE and ADC loan concentrations that management
failed to adequately control and that ultimately depleted earnings and eroded capital. In 2002, GWSB
began developing significant concentrations in CRE, particularly ADC lending. However, management
did not implement adequate loan underwriting and credit administration procedures commensurate with
the bank’s increasing risk profile. When the real estate market began to decline in 2007, the lack of
diversification in GWSB’s portfolio, coupled with the weak risk management practices, led to the rapid
deterioration in asset quality. Despite actions taken by the Board and management to address its
deteriorating condition, the IDFPR determined that GWSB was not viable because of poor asset quality,
poor earnings, and inadequate capital.


                                 To view the full report, go to www.fdicig.gov
   Executive Summary
                                     In-Depth Review of the Failure of George
                                     Washington Savings Bank, Orland Park, Illinois
                                                                                      Report No. IDR-11-001
                                                                                              October 2010



The FDIC’s Supervision of GWSB

Between 2005 and 2009, the FDIC and the IDFPR conducted safety and soundness examinations of
GWSB under an 18-month examination cycle in accordance with the FDI Act. During this time, with the
exception of the 2006 examination, examiners consistently reported the bank’s high CRE and ADC
concentrations and made numerous recommendations to strengthen the bank’s risk management practices.
Although examiners reported the high CRE and ADC concentrations and weak risk management
practices, these concerns were not reflected in the bank’s ratings until problem loans had begun to
adversely affect the bank’s financial condition. Offsite monitoring activity in 2009 resulted in
acceleration of the next onsite examination and led to the pursuit of a formal supervisory action.
However, the bank’s condition became critically deficient before formal action was taken.

In hindsight, the FDIC and the IDFPR could have taken earlier and stronger supervisory action prior to
2009 that may have been more effective in getting management to address issues identified by examiners
and mitigate the associated risks. Specifically, the FDIC could have more aggressively followed up on
issues identified in the 2005 examination and later could have downgraded Asset Quality and
Management component ratings and pursued supervisory action earlier.

The FDIC has taken a number of actions to address issues discussed in this report based on lessons it has
learned from failures during the financial crisis. Of note, in 2008, the FDIC reiterated broad supervisory
expectations with regard to managing risk associated with CRE and ADC concentrations. Further, the
FDIC recently completed a training initiative for its entire supervisory workforce that emphasizes the
need to assess a bank’s risk profile using forward-looking supervision. The training addresses the need
for examiners to consider management practices as well as current financial performance or trends in
assigning ratings, as allowable under existing examination guidance.

With respect to PCA, based on the supervisory actions taken, the FDIC properly implemented applicable
PCA provisions of section 38 in a timely manner. GWSB was unsuccessful in raising needed capital and
the bank was subsequently closed on March 12, 2010.

Management Response

After we issued our draft report, management provided additional information for our consideration, and
we revised our report to reflect this information, as appropriate. On October 8, 2010, the Director,
Division of Supervision and Consumer Protection (DSC), provided a written response to the draft report.
DSC reiterated the OIG’s conclusion regarding the causes of GWSB’s failure. With regard to our
assessment of the FDIC’s supervision of GWSB, DSC’s response summarized supervisory activities
between 2005 and 2010 described in our report, including offsite activities and supervisory actions.
Further, DSC’s response described the FDIC’s 2009 examination findings, also discussed in our report,
related to GWSB’s practice of extending loan maturities or granting new loans to problem borrowers.
DSC stated that the bank’s activities masked the level of loan problems and impacted the FDIC’s ability
to recognize the extent of asset quality problems prior to the onsite examination. DSC’s response also
recognized that strong supervisory attention is necessary for institutions with high CRE/ADC
concentrations, such as GWSB, and referenced supervisory guidance that DSC has issued to re-emphasize
the importance of robust credit risk-management practices and to set forth broad supervisory expectations.




                                 To view the full report, go to www.fdicig.gov
                                Contents
                                                                Page
Background                                                        2

Causes of Failure and Loss                                        2
  Concentrations in CRE and ADC Lending                           3
  Risk Management Policies and Practices                          5

The FDIC’s Supervision of GWSB                                    8
  Supervisory History                                             9
  Supervisory Response to Key Risks                               9
  Supervisory Lessons Learned                                    13
   Implementation of PCA                                         14

Corporation Comments                                             15

Appendices
  1. Objectives, Scope, and Methodology                          16
  2. Glossary of Terms                                           19
  3. Acronyms                                                    23
  4. Examiner Comments in Reports of Examination                 24
  5. Corporation Comments                                        25

Tables
   1. Financial Information for GWSB, 2005 to 2009                2
   2. GWSB’s Examination History, 2005 to 2009                    9

Figures
   1. GWSB’s Loan Composition, 2005 to 2009                       3
   2. GWSB’s Charge-off on Loans and Leases from December 31,     4
      2007 to December 31, 2009
Federal Deposit Insurance Corporation                                                Office of Material Loss Reviews
3501 Fairfax Drive, Arlington, Virginia 22226                                             Office of Inspector General


DATE:                                           October 14, 2010

MEMORANDUM TO:                                  Sandra L. Thompson, Director
                                                Division of Supervision and Consumer Protection

                                                /Signed/
FROM:                                           Stephen M. Beard
                                                Assistant Inspector General for Material Loss Reviews

SUBJECT:                                        In-Depth Review of the Failure of George Washington
                                                Savings Bank, Orland Park, Illinois
                                                (Report No. IDR-11-001)

The Illinois Department of Financial and Professional Regulation (IDFPR) closed George
Washington Savings Bank (GWSB), Orland Park, Illinois on February 19, 2010, and
named the FDIC as receiver. On March 12, 2010, the FDIC notified the OIG that
GWSB’s total assets at closing were $437 million and the estimated loss to the Deposit
Insurance Fund (DIF) was $141.3 million. As of September 3, 2010, the estimated loss
to the DIF had decreased to $136.5 million.

This assignment was initiated as a material loss review. However, on July 21, 2010, the
President signed into law the Dodd-Frank Wall Street Reform and Consumer Protection
Act (Financial Reform Act), which amends section 38(k) of the Federal Deposit Insurance
Act (FDI Act). The Financial Reform Act increases the material loss review (MLR)
threshold from $25 million to $200 million for losses that occur for the period January 1,
2010 through December 31, 2011. Further, the Financial Reform Act calls for the OIG to
perform in-depth reviews of failures when losses are not material but they involve
unusual circumstances. At the time the Financial Reform Act was enacted, our fieldwork
and the draft report were substantially complete. As a result, although the estimated loss
no longer met the threshold requiring an MLR, we decided to complete the audit and
issue this report.

Consistent with both Acts, the objectives of this review were to (1) determine the causes
of GWSB’s failure and the resulting loss to the DIF and (2) evaluate the FDIC’s
supervision of GWSB, including the FDIC’s implementation of the Prompt Corrective
Action (PCA), provisions of section 38 of the FDI Act.

This report presents our analysis of GWSB’s failure and the FDIC’s efforts to ensure that
the Board of Directors (Board) and management operated the institution in a safe and
sound manner. The report does not contain formal recommendations. Instead, as major
causes, trends, and common characteristics of institution failures are identified in our
material loss and in-depth reviews, we will communicate those to FDIC management for
its consideration. As resources allow, we may also conduct more comprehensive reviews
of specific aspects of the FDIC’s supervision program and make recommendations as
warranted.1

Appendix 1 contains details on our objectives, scope, and methodology. We also include
several other appendices to this report. Appendix 2 contains a glossary of key terms;
including material loss, the FDIC’s supervision program, and the Uniform Financial
Institutions Rating System, otherwise known as the CAMELS ratings. Appendix 3
contains a list of acronyms. Appendix 4 presents examiner comments on reports of
examination from 2005 to 2009. Appendix 5 contains the Corporation’s comments on
this report.


Background
GWSB, established as a federal savings and loan in 1890, converted to a state-chartered
savings bank in 1993 and was wholly-owned by George Washington Bancorp, Inc., a
one-bank holding company. The bank was headquartered in Orland Park, Illinois and
had three branch offices located in the Chicago metropolitan area. In 2002, after a
change in management, including Board Members and bank officers, GWSB changed its
lending focus from 1-4 family residential real estate loans to acquisition, development,
and construction (ADC) and other commercial real estate (CRE) loans. Table 1 provides
details on GWSB’s financial condition as of December 31, 2009 and for the 4 preceding
calendar years.

Table 1: Financial Information for GWSB, 2005 to 2009
Financial Measure                            Dec 2009       Dec 2008        Dec 2007        Dec 2006   Dec 2005
Total Assets ($000s)                          413,673        405,571         380,974         343,890   294,947
Total Loans ($000s)                           304,243        351,575         311,822         237,400   219,525
Total Deposits ($000s)                        395,310        347,110         308,717         288,069   247,389
Net Loan Growth Rate                          -18.06%        12.53%          31.73%           7.82%    27.03%
Net Income (Loss) ($000s)                     -29,435         1,612           5,006           4,566     2,847
Source: Uniform Bank Performance Reports (UBPR) for GWSB.



Causes of Failure and Loss

GWSB failed because of losses associated with CRE and ADC loan concentrations that
management failed to adequately control and that ultimately depleted earnings and
eroded capital. In 2002, GWSB began developing significant concentrations in CRE,
particularly ADC lending. However, management did not implement adequate loan
underwriting and credit administration procedures commensurate with the bank’s
increasing risk profile. When the real estate market began to decline in 2007, the lack of

1
 A further discussion of OIG-related coverage of financial institution failures can be found in the
Objectives, Scope, and Methodology section of our report.


                                                      2
diversification in GWSB’s portfolio, coupled with the weak risk management practices,
led to the rapid deterioration in asset quality. Despite actions taken by the Board and
management to address its deteriorating condition, the IDFPR determined that GWSB
was not viable because of poor asset quality, poor earnings, and inadequate capital.

Concentrations in CRE and ADC Lending

During 2002, GWSB’s management decided to change the bank’s focus from 1-4 family
residential lending to ADC and other CRE lending. From December 31, 2002 to
December 31, 2003, the bank’s ADC lending increased from $2.5 million to
$20.9 million, and commercial mortgage lending increased from $2.5 million to
$7.2 million. GWSB’s change in focus significantly increased the bank’s risk profile.
However, as discussed later, management did not institute sound risk management
practices commensurate with the bank’s loan portfolio. Figure 1 illustrates GWSB’s loan
composition, which by 2005 consisted primarily of ADC and other CRE loans.

Figure 1: GWSB’s Loan Composition, 2005 to 2009


                                         $400         Commercial & Other Loans                $353
                                                      Other CRE Loans
                                                      ADC Loans
                                         $350                                     $313                   $305
     Gross Loans and Leases (Millions)




                                         $300                       $238                     $120
                                                     $221                         $83
                                         $250                                                           $117

                                                                                  $48        $41
                                         $200                     $69
                                                   $71
                                                                                                        $35
                                         $150                     $41
                                                   $47

                                         $100                                     $182       $192
                                                                                                        $153
                                                                 $128
                                                   $103
                                         $50

                                          $0
                                                Dec-2005      Dec-2006       Dec-2007     Dec-2008   Dec-2009
                                                                           Period Ended

  Source: Reports of Condition and Income (Call Reports) for GWSB.

As shown in Figure 1, about 68 percent of GWSB’s loan portfolio was ADC and CRE
loans by 2005. The composition of the portfolio remained generally the same through
2009, with ADC and other CRE loans reaching a high of 74 percent of the portfolio
during that time. In addition, GWSB’s lending in CRE and ADC loans was significantly
higher than that of its peer group. GWSB’s peer group averages for CRE and ADC
lending from year-end 2005 to 2009 ranged from 142 percent to 229 percent of Total


                                                                              3
Capital for CRE and 38 percent to 54 percent for ADC lending. GWSB maintained CRE
concentrations exceeding 400 percent of Total Capital and ADC concentrations in excess
of 300 percent of Total Capital during the same period.

On December 12, 2006, federal banking regulatory agencies issued Joint Guidance on
Concentrations in Commercial Real Estate Lending, Sound Risk Management Practices
(Joint Guidance), to reinforce existing regulations and guidelines for real estate lending
and safety and soundness.2 The Joint Guidance focuses on those CRE loans for which
cash flow from real estate is the primary source of repayment (i.e., ADC lending). The
Joint Guidance states that the agencies had observed an increasing trend in the number of
institutions with concentrations in CRE loans and noted that rising CRE concentrations
could expose institutions to unanticipated earnings and capital volatility in the event of
adverse changes in the general CRE market.

Indeed, the significant level of GWSB’s ADC loans to leveraged builders/developers in
the Chicago area exposed the bank to substantial risk. According to the June 2008
examination report, the decline in the Chicago real estate market in 2007 started a
significant upward trend in classified credits. Specifically, GWSB’s Adversely Classified
Items Coverage Ratio,3 grew from 7.6 percent as of September 30, 2006 to 43.55 percent
as of March 31, 2008. By the October 2009 examination, this ratio had increased
significantly to 471 percent and asset quality was determined to be critically deficient.
As shown in Figure 2, from December 31, 2007 to December 31, 2009, the vast majority
of the bank’s loan charge-offs, $18.3 million of $27.5 million, involved ADC loans.

Figure 2: GWSB’s Charge-off on Loans and Leases from December 31, 2007 to
          December 31, 2009
                                          (Dollars in Thousands)


                                                  $4
                        $5,702


              $523




            $3,004
                                                                                $18,265



                        ADC Loans                          Other CRE Loans
                        1-4 Family Residential             Commercial & Industrial
                        All other Loans


Source: Reports of Condition and Income for GWSB.

2
  The guidance was issued jointly by the Office of the Comptroller of the Currency, the Board of Governors
of the Federal Reserve System, and the FDIC (collectively referred to as the agencies in the guidance).
3
  The Adversely Classified Items Coverage Ratio is a measure of the level of asset risk and the ability of
capital to protect against that risk. A lower ratio is desirable because a higher ratio indicates exposure to
poor quality assets and may also indicate less ability to absorb the consequences of bad loans.


                                                       4
Risk Management Policies and Practices

According to the FDIC’s Risk Management Manual of Examination Policies
(Examination Manual), an institution’s Board is responsible for establishing appropriate
risk limits, monitoring exposure, and evaluating the effectiveness of the institution’s
efforts to manage and control risk. In addition, the Joint Guidance reiterates that
concentrations in CRE lending, coupled with weak loan underwriting and depressed CRE
markets, contributed to significant credit losses in the past. According to the Joint
Guidance:

   strong risk management practices are an important element of a sound CRE lending
    program, particularly when an institution has a concentration in CRE loans;
   financial institutions with CRE concentrations should ensure that risk management
    practices appropriate to the size of the portfolio, as well as the level and nature of
    concentrations, and the associated risk to the institution are implemented; and
   financial institutions should establish a risk management framework that effectively
    identifies, monitors, and controls CRE concentration risk.

Further, Financial Institution Letter (FIL)-22-2008, Managing Commercial Real Estate
Concentrations in a Challenging Environment, issued March 17, 2008, provides key risk
management processes for institutions with CRE concentrations, including maintaining
prudent, time-tested lending policies with a strong credit review and risk rating system to
identify deteriorating credit trends early and maintaining updated financial and analytical
information for borrowers. For example, institutions should emphasize global financial
analysis of obligors, which involves analyzing borrowers’ complete financial resources
and obligations. The guidance further states that inappropriately adding extra interest
reserves on loans where the underlying real estate project is not performing as expected
can erode collateral protection and mask loans that would otherwise be reported as
delinquent.

A significant cause of the decline in asset quality experienced by GWSB was
management’s poor risk management practices, including weak loan underwriting and
poor credit administration practices. Although the economic decline in GWSB’s lending
area was a contributing factor in the deterioration of its asset quality, the weaknesses in
the bank’s underwriting and credit administration practices significantly impacted the
ability of the bank to identify, measure, monitor, and control the inherent risk in its loan
portfolio. As a result, the bank was ill-prepared to address the challenges resulting from
that decline.

Loan Underwriting

Insufficient loan underwriting standards and lax credit administration exacerbated the
risks undertaken by management and contributed to the extensive loan losses. In
numerous instances, management relied on faulty appraisals, incomplete analysis of the
financial capacity of borrowers/guarantors, and inaccurate construction budgets when
they underwrote these loans. As GWSB’s speculative construction portfolio increased
and the economy started to decline, weaknesses in GWSB’s loan underwriting practices


                                             5
became more exposed. Examiners identified a variety of weaknesses in the bank’s loan
underwriting practices, including the following:

      Inadequate Global Cash Flow Analysis. The 2005, 2008, and 2009
       examinations reported that the bank did not conduct adequate global cash flow
       analysis on borrowers prior to extending credit. Specifically, the bank did not
       obtain information such as comparative financial statements, income statements,
       cash flow statements, and other pertinent statistical support, including the
       borrowers’ list of contingent liabilities. Examiners concluded that, lacking such
       information, management could not adequately assess borrowers’ repayment
       capacity.

      Inadequate Borrower Equity. A key factor in determining the extent of risk in a
       project is the equity contribution of the borrower. The 2009 examination
       identified five loans totaling $24 million, for which the borrower’s equity into the
       project was less than 3 percent of the loan amount. According to GWSB’s Credit
       Policy, the borrower on a commercial construction project was supposed to have a
       minimum of 20 percent equity into the project.

      Improper Loan Approval. The 2009 examination report identified over
       290 loans where borrowers received extensions of maturities or additional loan
       funds without proper review and approval by the Executive Loan Committee.
       According to GWSB’s Credit Policy, changes to loans exceeding the individual
       loan officer’s loan authority and all loan renewals should have been approved by
       the Executive Loan Committee. The examination report stated that, in many
       instances, GWSB’s management granted loan extensions to mask past due loans
       at month-, quarter-, and year-end reporting dates. As a result, the Board and
       senior management did not identify problem loans in a timely manner or new loan
       funds being extended to problem borrowers.

      Reliance on Faulty Appraisals. The 2009 examination report further stated that
       the bank relied on stale or incomplete appraisals when originating loans. In many
       instances, management granted additional funds without obtaining new appraisals.
       As a result, additional funds were granted without any consideration to collateral
       coverage. Additionally, the examination report stated that management had an
       inadequate appraisal review system. As such, significant errors in appraisals were
       not identified by management, which resulted in the extension of loan funds based
       on substantially overstated appraised values. The decline in the real estate
       market, especially the condominium market in Chicago, further compounded the
       issue.

Credit Administration

   In addition to weak underwriting practices, examiners also identified numerous credit
   administration deficiencies during examinations of GWSB from 2005 to 2009. The
   following summarizes some of the problems cited that ultimately contributed to
   deterioration in asset quality.


                                            6
          GWSB did not develop a tickler system for credit file documentation or
           formal triggers for loan rating downgrades and upgrades. As a result,
           examiners noted numerous technical exceptions, such as stale financial
           statements and insurance, during the 2005 examination. Further, large loans
           classified as Special Mention and Substandard did not include current building
           insurance, and loan files did not have current financial statements.

          GWSB’s Loan Policy contained limits for various types of commercial loans
           as a percentage of Tier One Capital that ranged from 200 percent to 400
           percent. Examiners noted that the policy limits were too high to represent any
           meaningful attempt to control concentration risk.

          Management did not implement appropriate controls over loan collateral. In
           several instances, examiners questioned whether management had adequately
           perfected liens on the collateral. Additionally, in some instances,
           management did not obtain updated accounts receivable aging reports and/or
           valuations of miscellaneous collateral.

          GWSB did not adequately monitor construction projects. Initial budgeted
           projections were not routinely compared to actual performance. Examiners
           noted that target completion dates were missed and costs had exceeded
           budgeted projections on construction loans during the 2009 examination.

          Management failed to properly identify and report loans that exceeded
           supervisory loan-to-value limits as outlined in Appendix A of Part 365 of the
           FDIC Rules and Regulations. Therefore, high-risk loans were not
           appropriately identified and monitored.

          GWSB’s geographical zone concentration report contained a comprehensive
           breakdown of the types of its CRE loans by zone; however, there was no
           summation of these types to determine the overall dollar amount by category.

          GWSB’s management failed to implement an appropriate loan grading
           system, which resulted in management not properly identifying the risks in the
           loan portfolio. As discussed below, the deficiencies identified in the bank’s
           loan grading system also impacted the adequacy of the Allowance for Loan
           and Lease Losses (ALLL).

Allowance for Loan and Lease Losses

On December 13, 2006, the federal financial institution regulatory agencies issued an
Interagency Policy Statement on the Allowance for Loan and Lease Losses (ALLL Policy
Statement) that reiterated key concepts and requirements related to generally accepted




                                            7
accounting principles4 and existing supervisory guidance. Specifically, the ALLL Policy
Statement describes the nature and purpose of the ALLL; the responsibilities of boards of
directors, management, and examiners; factors to be considered in the estimation of the
ALLL; and the objectives and elements of an effective loan review system, including a
sound credit grading system. The Policy Statement indicates that an institution’s process
for determining the ALLL should be based on a comprehensive, well-documented, and
consistently applied analysis of its loan portfolio that considers all significant factors that
affect collectability. That analysis should include an assessment of changes in economic
conditions and collateral values and their direct impact on credit quality. If declining
credit quality trends relevant to the types of loans in an institution's portfolio are evident,
the ALLL level as a percentage of the portfolio should generally increase, barring
unusual charge-off activity.

In 2009, examiners reported that the main reason for GWSB’s inadequate ALLL was
management's inability to identify problem loans due to an inadequate loan monitoring
system. Also, the bank’s ALLL policy guidance, as contained in its Credit Policy, was
insufficient for assessing the adequacy of the ALLL. The policy guidance did not
provide procedures for determining when a loan is impaired or for calculating impairment
pursuant to FAS 114. The policy also did not address methods for segmenting loans by
type pursuant to FAS 5.



The FDIC’s Supervision of GWSB

Between 2005 and 2009, the FDIC and the IDFPR conducted safety and soundness
examinations of GWSB under an 18-month examination cycle in accordance with the
FDI Act.5 During this time, with the exception of the 2006 examination, examiners
consistently reported the bank’s high CRE and ADC concentrations and made numerous
recommendations to strengthen the bank’s risk management practices. Although
examiners reported the high CRE and ADC concentrations and weak risk management
practices, these concerns were not reflected in the bank’s ratings until problem loans had
begun to adversely affect the bank’s financial condition. Offsite monitoring activity in
2009 resulted in acceleration of the next onsite examination and led to the pursuit of a
formal supervisory action. However, the bank’s condition became critically deficient
before formal action was taken.

In hindsight, the FDIC and the IDFPR could have taken earlier and stronger supervisory
action prior to 2009 that may have been more effective in getting management to address
issues identified by examiners and mitigate the associated risks. Specifically, the FDIC

4
  Statement of Financial Accounting Standards (FAS) No. 5, Accounting for Contingencies and
FAS No. 114, Accounting by Creditors for Impairment of a Loan.
5
  Section 337.12 of the FDIC Rules and Regulations, which implements section 10(d) of the FDI Act,
requires annual full scope, on-site examinations of every state nonmember bank at least once every
12-month period and allows for 18-month intervals for certain small institutions (total assets of less than
$500 million) if certain conditions are satisfied. GWSB met the conditions for the 18-month examination
cycle.


                                                     8
could have more aggressively followed up on issues identified in the 2005 examination
and later could have downgraded Asset Quality and Management component ratings and
pursued supervisory action earlier.

The FDIC has taken a number of actions to address issues discussed in this report based
on lessons it has learned from failures during the financial crisis. Of note, in 2008, the
FDIC reiterated broad supervisory expectations with regard to managing risk associated
with CRE and ADC concentrations. Further, the FDIC recently completed a training
initiative for its entire supervisory workforce that emphasizes the need to assess a bank’s
risk profile using forward-looking supervision. The training addresses the need for
examiners to consider management practices as well as current financial performance or
trends in assigning ratings, as allowable under existing examination guidance.

Supervisory History

From 2005 to 2009, the FDIC conducted three examinations and the IDFPR conducted
one examination of GWSB. In addition to onsite examinations, the FDIC conducted
offsite monitoring, which generally consisted of periodic contact with bank management
to discuss current or emerging issues or concerns. FDIC officials also contacted bank
officials as part of its pre-examination planning process. Further, the FDIC used various
offsite monitoring tools, including the offsite review list (ORL), to monitor GWSB
between examinations. Specifically, GWSB was flagged on the FDIC’s ORL based on
December 31, 2008 Call Report data, which resulted in a June 2009 FDIC offsite review
that is discussed later in this report. Until the June 2009 offsite review, GWSB was
considered a well-performing institution and consistently received composite “1” or “2”
CAMELS ratings.

Table 2: GWSB’s Examination History, 2005 to 2009
                                                      Supervisory            Supervisory Action
Examination       Examination
                                       Agency           Ratings
 Start Date        as of Date
                                                        (UFIRS)
12/29/2005       09/30/2005        FDIC                 222221/2       None
12/13/2006       09/30/2006        IDFPR                111111/1       None
06/09/2008       03/31/2008        FDIC                 232222/2       None
10/19/2009       09/30/2009        FDIC                 555555/5       Cease and Desist Order
                                                                       (C&D)
Source: Reports of Examination for GWSB.
Note: IDFPR issued this C&D effective against GWSB as of December 4, 2009.

Supervisory Response to Key Risks

Examiners consistently identified GWSB’s concentrations and made recommendations
for the bank to improve its underwriting and credit administration practices as detailed in
Appendix 4. However, in hindsight, a more forward-looking assessment of GWSB’s risk
profile, especially the bank’s exposure to an economic downturn, may have been prudent.




                                                 9
2005 Supervisory Activities

In the December 2005 examination, examiners assigned GWSB a composite “2”
CAMELS rating, concluding that the financial condition of the bank was satisfactory,
even as the bank’s risk characteristics had changed from a traditional savings bank
focused on mortgage lending to that of an institution heavily concentrated in construction
lending.

Examiners found Asset Quality and Management to be satisfactory and assigned both
components a “2” rating. The level of CRE loans was 551 percent of Tier 1 Capital and
was mainly comprised of construction loans. The bank had a low level of adversely
classified loans, but examiners identified a number of deficiencies in loan underwriting
and credit administration. Examiners noted that approximately two-thirds of the
construction lending involved speculative residential construction loans and, as such,
noted that management needed to make every effort to proactively manage these loans
and the bank’s exposure in that area. Recommendations were made for management to
(1) identify risk limits for construction lending in geographic sub-markets by collateral
type, (2) improve loan presentations, (3) analyze borrower repayment capacity using
global cash flow analysis, and (4) prepare officer memorandums for the credit files.

Further, examiners recommended that management increase oversight of the institution’s
CRE concentration, especially the large speculative construction portfolio. Examiners
stressed that given the increased risk as the bank was growing, the Board’s monitoring of
this risk needed to be improved. Management was also advised that staffing for the size
and complexity of the institution needed to be addressed.

Examiners recommended that due to the numerous underwriting and credit administration
weaknesses, the concentration in speculative construction loans, and the potential for
increased risk within the loan portfolio from economic changes, that the FDIC conduct a
targeted visitation of asset quality, liquidity, and information technology concurrent with
the IDFPR examination planned for 2006.

2006 Supervisory Activities

Although the 2005 examination recommended that the FDIC conduct a targeted visitation
concurrent with the state’s 2006 examination, the FDIC did not do so. FDIC officials
explained that it is not customary to perform joint examinations on “2” rated institutions
with assets less than $1 billion and the FDIC made a risk-based decision not to perform a
visitation and instead rely on the IDFPR examination. The IDFPR December 2006
examination rated GWSB a composite “1” and did not report any serious weaknesses in
the bank’s operations. The report noted that ADC loans comprised 595 percent of Tier 1
Capital, and recommended loan administration enhancements pertaining to credit
memorandums and status memorandums for construction and development projects.
However, there were no additional matters of material supervisory concern pertaining to
the lending function or other components noted in the IDFPR report.




                                            10
IDFPR’s composite rating for GWSB appeared to be in contrast with the FDIC’s findings
a year earlier in terms of the bank’s risk profile and risk management practices. Further,
based on reading and comparing this examination report to the prior and subsequent
examinations, the IDFPR and the FDIC appear to have missed an opportunity in 2006 to
emphasize to GWSB’s Board and management the risk associated with the increasing
ADC concentrations and their responsibility to develop strong risk management practices
to mitigate those risks. Although not customary as mentioned earlier, FDIC officials
acknowledged in retrospect that it would have been beneficial to have had an FDIC
examination team assisting with the 2006 examination, as was recommended in 2005.

2008 Supervisory Activities

The FDIC’s June 2008 examination found that the overall condition of the institution was
satisfactory; however, the examination report emphasized that asset quality had begun to
deteriorate as a result of a downturn in the real estate market and the bank’s heavy
concentration in CRE and speculative residential construction loans. The Adversely
Classified Items Coverage ratio had significantly increased from 7.60 percent at
December 2006 to 43.55 percent as of March 2008. As a result, the FDIC downgraded
the bank’s Asset Quality component rating from a “1” to a “3”. Further, the FDIC
downgraded each of the bank’s other component ratings, including Management, and the
composite rating to “2”. Additionally, examiners reported loan documentation
deficiencies and weaknesses in the bank’s concentration reporting process and CRE
policy limits and made recommendations for the bank to improve practices for analyzing
borrowers’ financial conditions. Further, examiners made recommendations related to
the bank’s lending policies and procedures, concentration reporting, use of interest
reserves, and ALLL methodology and reporting. FDIC officials explained that, at the
time the examination was conducted, a number of construction projects had recently been
completed or were nearing completion and sufficient time had not elapsed for
performance and impairment issues to develop and become evident.

In hindsight, although examiners downgraded Asset Quality, given the weak practices
identified and the focus of recommendations, a lower Management rating may have been
warranted. A “2” rating indicates satisfactory management and board performance and
risk management practices relative to the institution’s size, complexity, and risk profile.
Minor weaknesses may exist, but are not material to the safety and soundness of the
institution and are being addressed. In general, significant risks and problems are
effectively identified, measured, monitored, and controlled. In comparison, a “3” rating
indicates management and board performance that need improvement or risk
management practices that are less than satisfactory given the nature of the institution’s
activities. The capabilities of management or the board of directors may be insufficient
for the type, size, or condition of the institution. Problems and significant risks may be
inadequately identified, measured, monitored, or controlled. GWSB’s weaknesses and
risk profile appear to be more consistent with the definition of a “3” Management rating.
Further, pursuit of an informal supervisory action may have been prudent in order to
increase supervisory oversight and solicit a more formal commitment from management
to correct weaknesses.



                                            11
The next full-scope examination after the June 2008 examination was to commence in
early 2010 based on GWSB’s 18-month examination cycle. However, the results of an
offsite review (targeted FDIC analysis of financial data and other information provided
by GWSB) in June 2009 resulted in the FDIC accelerating the start of the onsite
examination by several months.

2009 Supervisory Activities

June 2009 Offsite Review. The FDIC’s Offsite Monitoring Review Program flagged
several line items in GWSB’s December 31, 2008 Call Report data because of negative
trends related to non-accrual loans and the Adverse Classified Items Coverage Ratio. In
addition, earnings had declined and capital levels had decreased. Accordingly, the FDIC
initiated an offsite review during which examiners reviewed March 2009 Call Report data
to gauge the extent of further deterioration. The offsite review recommended
downgrading the bank’s composite rating to a “3”. In response to the recommendation,
the FDIC immediately took action to confirm the bank’s condition and ratings by
expediting the next full-scope examination that was originally scheduled to begin in
January or February 2010 to October 2009.

October 2009 FDIC Examination. Examiners found that GWSB’s overall condition
was critically weak and downgraded the bank’s composite rating to a “5”. The
examination report concluded that management’s practice of promoting rapid growth in
high-risk construction and development projects without appropriate underwriting
controls resulted in massive loan losses. The significant level of construction and
development loans to leveraged builders and developers in the Chicago area had exposed
the bank to substantial risks. Significant deficiencies related to loan administration and
underwriting were identified, which contributed to the deterioration in the bank’s
financial condition.

Specifically, examiners found asset quality to be critically deficient as the volume and
severity of adverse classifications were at unacceptable levels. As discussed earlier in
this report, examiners attributed the deterioration primarily to insufficient oversight of the
bank’s loan portfolio by the Board and senior management, as well as weak credit
administration practices and the economic recession. Examiners reported that
management had allowed CRE loans to grow by over 45 percent during the prior 3 years
without proper policies and procedures being implemented, including the failure to:
implement an appropriate loan grading system, obtain sufficient borrower equity, acquire
executive loan committee approval on extensions and granting of additional funds,
appropriately monitor construction loans, adequately monitor and perfect liens on
collateral, sufficiently valuate collateral, and monitor and analyze borrower and/or
guarantor financial capacity.

Further, examiners criticized GWSB’s management for not implementing appropriate
risk management practices. Problem loans were not adequately identified, and
management had not sufficiently provided for an adequate ALLL. Management also
failed to control the level of asset concentrations, and the lack of diversification had
significantly impacted the volume of problem loans. Management was found to be in


                                             12
non-compliance with Appendix A of Parts 364 and 365 of the FDIC Rules and
Regulations, which addresses operational and managerial standards for safety and
soundness, supervisory loan-to-value limits, and guidance for real estate lending policies.
FDIC officials explained that management’s efforts, discussed earlier in this report, to
mask past-due loans by granting loan extensions without proper approval impacted the
examiners’ ability to recognize the extent of asset deterioration before the 2009 onsite
examination and helped to explain the rapid pace of deterioration once the practice was
discovered by examiners. These activities are the subject of an ongoing investigation.

Earnings performance was found to be extremely poor and insufficient to support
operations. Rising levels of nonaccrual loans and increased loan loss provisions had
depleted earnings. Contributing to the decline in earnings was the high cost of funds,
with the bank’s cost of interest-bearing deposits to be significantly above peer levels. As
of September 30, 2009, a net operating loss of $12 million was reported.

GWSB’s liquidity was of significant concern due to the heightened risk profile of the
institution. Although the bank’s dependence on non-core funding was manageable and
the bank did not utilize brokered deposits, severe asset quality deterioration had
weakened the bank’s liquidity position to the point where it was in jeopardy of not being
able to meet liquidity needs.

December 2009 C&D. Based on the results of the October 2009 examination, the
IDFPR issued a C&D to GWSB that required the Board within 60 days:

       …to contribute and maintain capital in an amount necessary to eliminate the
       impairment and unsafe and unsound condition; to provide an adequate level of
       protection based on its financial condition, management, earnings prospects, and
       risk profile; and to assure maintenance of insurance of deposit accounts by the
       FDIC. At a minimum, capital shall be contributed and maintained to meet the
       following requirements:

               a. Increase its Tier 1 leverage capital ratio to not less than 5 percent;
               b. Increase its Tier 1 risk-based regulatory capital ratio to 6 percent; and
               c. Increase its total risk-based capital ratio to not less than 10 percent.

In addition, the FDIC notified the bank of its intent to issue a C&D. However,
proceedings to close the bank began in early 2010 and, therefore, the FDIC’s C&D was
not officially executed.

Supervisory Lessons Learned

According to the Examination Manual, the quality of an institution’s management,
including its Board of Directors and executive officers, is perhaps the single most
important element in the successful operation of a bank. The Board has overall




                                            13
responsibility and authority for formulating sound policies and objectives for the bank
and for effectively supervising the institution’s affairs. The Examination Manual further
states that:

       …to effectively prevent serious problems in an institution, the conditions and
       circumstances that may lead to problems must be identified and corrected early.
       Corrective action should be taken immediately upon identifying excessive risk
       taking…when corrective action is not taken until conditions have deteriorated it is
       often too late to avoid failure. Moral suasion and informal agreements are
       normally sufficient where the unacceptable risk-taking is identified early, but
       formal action must be considered, even when an institution is rated 1 or 2, if
       circumstances warrant.

In hindsight, GWSB’s aggressive pursuit of CRE loans and, in particular, speculative
construction lending, may have warranted greater supervisory concern. As discussed
earlier, the risks associated with the high CRE and ADC concentrations and weak loan
underwriting and credit administration practices were evident during each of the FDIC’s
examinations conducted since GWSB changed its focus to CRE lending in 2002. In that
regard, earlier and stronger supervisory action prior to 2009 may have been more
effective in obtaining management’s commitment and follow-through to address
deficiencies identified by examiners and mitigate the associated risks. Such actions may
have involved earlier component and composite rating downgrades and pursuit of an
informal supervisory action, such as a bank board resolution or memorandum of
understanding, to ensure the bank corrected its operational deficiencies.

The FDIC has taken steps to increase supervisory attention to banks that have risk
profiles similar to GWSB. On January 26, 2010, the FDIC issued guidance to its
examiners that defines procedures for better ensuring that examiner concerns and
recommendations are appropriately tracked and addressed. Specifically, the guidance
defines a standard approach for communicating matters requiring Board attention
(e.g., examiner concerns and recommendations) in examination reports. The guidance
also states that examination staff should request a response from the institution regarding
the actions that it will take to mitigate the risks identified during the examination and
correct noted deficiencies.

Finally, the FDIC recently completed a training initiative for its entire supervisory
workforce that emphasizes the need to assess a bank’s risk profile using forward-looking
supervision. The training addressed the need for examiners to consider management
practices as well as the financial institution’s current financial performance or trends in
assigning ratings as allowable under existing examination guidance.

Implementation of PCA

The purpose of PCA is to resolve problems of insured depository institutions at the least
possible long-term cost to the DIF. Part 325 of the FDIC Rules and Regulations
implements PCA requirements by establishing a framework for taking prompt corrective
action against insured state-chartered nonmember banks that are not adequately


                                            14
capitalized. The FDIC is required to closely monitor the institution’s compliance with its
capital restoration plan, mandatory restrictions defined under section 38(e), and
discretionary safeguards imposed by the FDIC (if any) to determine if the purposes of
PCA are being achieved. Based on the supervisory actions taken with respect to GWSB,
we determined that the FDIC properly implemented applicable PCA provisions of
section 38.

Based on its September 30, 2009 Call Report, GWSB became Adequately Capitalized. In
a letter dated November 24, 2009, the FDIC informed the bank that it was required to
obtain a non-objection from the FDIC before obtaining brokered deposits. Additionally,
on December 2, 2009, the FDIC notified GWSB that it was Critically Undercapitalized
as a result of the most recent examination dated October 19, 2009 and advised the bank to
develop policies and procedures to ensure compliance with requirements contained in
Section 38, including submission of a capital restoration plan and restrictions on asset
growth, acquisitions, new activities, new branches, payment of dividends or other capital
distributions, management fees, and senior executive compensation. However, GWSB
failed to submit a formal written capital restoration plan and was subsequently closed on
February 19, 2010.

Troubled Asset Relief Program. GWSB applied for funds under the Troubled Asset
Relief Program (TARP) on April 28, 2009. However, after being advised that the
application would not be approved, GWSB withdrew the TARP application on
September 1, 2009.


Corporation Comments
After we issued our draft report, management provided additional information for our
consideration, and we revised our report to reflect this information, as appropriate. On
October 8, 2010, the Director, DSC, provided a written response to the draft report. That
response is provided in its entirety as Appendix 5 of this report. DSC reiterated the
OIG’s conclusion regarding the causes of GWSB’s failure. With regard to our
assessment of the FDIC’s supervision of GWSB, DSC’s response summarized
supervisory activities between 2005 and 2010 described in our report, including offsite
activities and supervisory actions. Further, DSC’s response described the FDIC’s 2009
examination findings, also discussed in our report, related to GWSB’s practice of
extending loan maturities or granting new loans to problem borrowers. DSC stated that
the bank’s activities masked the level of loan problems and impacted the FDIC’s ability
to recognize the extent of asset quality problems prior to the onsite examination. DSC’s
response also recognized that strong supervisory attention is necessary for institutions
with high CRE/ADC concentrations, such as GWSB, and referenced supervisory
guidance that DSC has issued to re-emphasize the importance of robust credit risk-
management practices and to set forth broad supervisory expectations.




                                            15
                                                                             Appendix 1

                     Objectives, Scope, and Methodology

Objectives

We performed this performance audit to satisfy the requirements of section 38(k) of the
FDI Act as amended by the Financial Reform Act which was signed into law on July 21,
2010. The Financial Reform Act amends section 38(k) of the FDI Act by increasing the
MLR threshold from $25 million to $200 million for losses that occur for the period
January 1, 2010 through December 31, 2011. Further, the Financial Reform Act includes
provisions that call for the OIG to perform an in-depth review of failures when losses are
not material but they involve unusual circumstances. In-depth reviews are required to be
performed and reported in a manner consistent with that of an MLR.

At the time the Financial Reform Act was enacted, we had completed our fieldwork and
were in the process of preparing a draft MLR report. Although the estimated loss for
GWSB no longer met the threshold requiring an MLR, the OIG decided to complete the
audit and issue this report as an in-depth review.

Consistent with the Financial Reform and FDI Act provisions described above, the
objectives of this review were to (1) determine the causes of GWSB’s failure and the
resulting loss to the DIF and (2) evaluate the FDIC’s supervision of GWSB, including the
FDIC’s implementation of the PCA provisions of section 38 of the FDI Act.

We conducted this performance audit from February 2010 to August 2010 in accordance
with generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.


Scope and Methodology

The scope of this audit included an analysis of GWSB’s operations from December 31,
2005 until its failure on February 19, 2010. Our review also entailed an evaluation of the
regulatory supervision of the institution over the same period.

To achieve the objectives, we performed the following procedures and techniques:

        Analyzed examination reports prepared by the FDIC and the IDFPR examiners
         from 2005 to 2009.

        Reviewed the following:

              Bank data and correspondence provided from the FDIC DSC Chicago
               regional and field offices.



                                            16
                                                                             Appendix 1
                     Objectives, Scope, and Methodology

              Reports prepared by the Division of Resolutions and Receiverships (DRR)
               and DSC relating to the bank’s closure.

              Pertinent DSC policies and procedures and various banking laws and
               regulations.

        Interviewed the following FDIC officials:

              DSC management in Washington, D.C. and the Chicago Regional Office.

              FDIC examiners from the DSC Chicago and Champaign, Illinois Field
               Offices, who participated in examinations or reviews of examinations of
               GWSB.


Internal Control, Reliance on Computer-processed Information,
Performance Measurement, and Compliance with Laws and Regulations

Consistent with the audit objectives, we did not assess DSC’s overall internal control or
management control structure. We relied on information in DSC systems, reports,
Reports of Examination (ROEs), and interviews of examiners to understand GWSB’s
management controls pertaining to causes of failure and loss as discussed in the body of
this report.

We obtained data from various FDIC systems but determined that information system
controls were not significant to the audit objectives and, therefore, did not evaluate the
effectiveness of information system controls. We relied on our analysis of information
from various sources, including ROEs, correspondence files, and testimonial evidence to
corroborate data obtained from systems that was used to support our audit conclusions.

The Government Performance and Results Act of 1993 (the Results Act) directs
Executive Branch agencies to develop a customer-focused strategic plan, align agency
programs and activities with concrete missions and goals, and prepare and report on
annual performance plans. For this in-depth review, we did not assess the strengths and
weaknesses of DSC’s annual performance plan in meeting the requirements of the
Results Act because such an assessment is not part of the audit objectives. DSC’s
compliance with the Results Act is reviewed in program audits of DSC operations.

Regarding compliance with laws and regulations, we performed tests to determine
whether the FDIC had complied with provisions of PCA and limited tests to determine
compliance with certain aspects of the FDI Act. The results of our tests were discussed,
where appropriate, in the report. Additionally, we assessed the risk of fraud and abuse
related to our objectives in the course of evaluating audit evidence.




                                             17
                                                                             Appendix 1
                   Objectives, Scope, and Methodology

Related Coverage of Financial Institution Failures

On May 1, 2009, the OIG issued an internal memorandum that outlined major causes,
trends, and common characteristics of FDIC-supervised financial institution failures that
had resulted in a material loss to the DIF. The memorandum also indicated that the OIG
planned to provide more comprehensive coverage of those issues and make related
recommendations, when appropriate. Since May 1, 2009, the OIG has issued additional
MLR reports related to failures of FDIC-supervised institutions, and these reports can be
found at www.fdicig.gov. In June 2010, the OIG initiated an audit, the objectives of
which are to (1) determine the actions that the FDIC has taken to enhance its supervision
program since May 2009, including those specifically in response to the May 2009
memorandum, and (2) identify trends and issues that have emerged from subsequent
MLRs.

In addition, with respect to more comprehensive coverage of specific issues, in May
2010, the OIG initiated an evaluation of the role and federal regulators’ use of the Prompt
Regulatory Action provisions of the FDI Act (section 38, PCA and section 39, Standards
for Safety and Soundness) in the banking crisis.




                                            18
                                                                                  Appendix 2
                               Glossary of Terms

Term                                                Definition
Acquisition,     ADC loans are a component of Commercial Real Estate that provide funding
Development,     for acquiring and developing land for future construction, and that provide
and              interim financing for residential or commercial structures.
Construction
(ADC) Loans
Adversely        Assets subject to criticism and/or comment in an examination report.
Classified       Adversely classified assets are allocated on the basis of risk (lowest to
Assets           highest) into three categories: Substandard, Doubtful, and Loss.

Allowance for    The ALLL is an estimate of uncollectible amounts that is used to reduce the
Loan and Lease   book value of loans and leases to the amount that is expected to be collected.
Losses (ALLL)    It is established in recognition that some loans in the institution’s overall loan
                 and lease portfolio will not be repaid. Boards of directors are responsible for
                 ensuring that their institutions have controls in place to consistently
                 determine the allowance in accordance with the institutions' stated policies
                 and procedures, generally accepted accounting principles, and supervisory
                 guidance.

Bank Board       A Bank Board Resolution is an informal commitment adopted by a financial
Resolution       institution’s Board of Directors (often at the request of the FDIC) directing
(BBR)            the institution’s personnel to take corrective action regarding specific noted
                 deficiencies. A BBR may also be used as a tool to strengthen and monitor
                 the institution’s progress with regard to a particular component rating or
                 activity.
Call Report      Reports of Condition and Income, often referred to as Call Reports, include
                 basic financial data for insured commercial banks in the form of a balance
                 sheet, an income statement, and supporting schedules. According to the
                 Federal Financial Institutions Examination Council’s (FFIEC) instructions for
                 preparing Call Reports, national banks, state member banks, and insured
                 nonmember banks are required to submit a Call Report to the FFIEC’s
                 Central Data Repository (an Internet-based system used for data collection)
                 as of the close of business on the last day of each calendar quarter.

Cease and        A C&D is a formal enforcement action issued by a financial institution
Desist Order     regulator pursuant to 12 U.S.C. section 1818 to a bank or affiliated party to
(C&D)            stop an unsafe or unsound practice or a violation of laws and regulations. A
                 C&D may be terminated when the bank’s condition has significantly
                 improved and the action is no longer needed or the bank has materially
                 complied with its terms.

Commercial       CRE loans are land development and construction loans (including 1-to-4
Real Estate      family residential and commercial construction loans) and other land loans.
(CRE) Loans      CRE loans also include loans secured by multifamily property and nonfarm
                 nonresidential property, where the primary source of repayment is derived
                 from rental income associated with the property or the proceeds of the sale,
                 refinancing, or permanent financing of the property.




                                            19
                                                                                 Appendix 2
                              Glossary of Terms

Concentration    A concentration is a significantly large volume of economically related assets
                 that an institution has advanced or committed to a certain industry, person,
                 entity, or affiliated group. These assets may, in the aggregate, present a
                 substantial risk to the safety and soundness of the institution.

Global Cash      A global cash flow analysis is a comprehensive evaluation of borrower
Flow Analysis    capacity to perform on a loan. During underwriting, proper global cash flow
                 must thoroughly analyze projected cash flow and guarantor support. Beyond
                 the individual loan, global cash flow must consider all other relevant factors,
                 including: guarantor’s related debt at other financial institutions, future
                 economic conditions, as well as obtaining current and complete operating
                 statements of all related entities. In addition, global cash flow analysis should
                 be routinely conducted as a part of credit administration. The extent and
                 frequency of global cash flow analysis should be commensurate to the
                 amount of risk associated with the particular loan.

Material Loss    As defined by section 38(k)(2)(B) of the FDI Act, and as amended by the
                 Dodd-Frank Wall Street Reform and Consumer Protection Act, for the period
                 beginning January 1, 2010 and ending December 31, 2011, a material loss is
                 defined as any estimated loss in excess of $200 million.

Memorandum       A Memorandum of Understanding is an informal agreement between the
of               institution and the FDIC, which is signed by both parties. The State
Understanding    Authority may also be party to the agreement. MOUs are designed to address
(MOU)            and correct identified weaknesses in an institution’s condition.

Offsite Review   The FDIC’s Offsite Review Program is designed to identify emerging
Program          supervisory concerns and potential problems so that supervisory strategies
                 can be adjusted appropriately. Offsite reviews are performed quarterly for
                 each bank that appears on the Offsite Review List. Regional management is
                 responsible for implementing procedures to ensure that Offsite Review
                 findings are factored into examination schedules and other supervisory
                 activities.

Peer Group       Institutions are assigned to 1 of 15 peer groups based on asset size, number of
                 branches, and whether the institution is located in a metropolitan or non-
                 metropolitan area.




                                            20
                                                                                Appendix 2
                              Glossary of Terms


Prompt           The purpose of PCA is to resolve the problems of insured depository
Corrective       institutions at the least possible long-term cost to the Deposit Insurance Fund.
Action (PCA)     Part 325, subpart B, of the FDIC Rules and Regulations, 12 Code of Federal
                 Regulations, section 325.101, et. seq., implements section 38, Prompt
                 Corrective Action, of the FDI Act, 12 United States Code section 1831(o), by
                 establishing a framework for determining capital adequacy and taking
                 supervisory actions against depository institutions that are in an unsafe or
                 unsound condition. The following terms are used to describe capital
                 adequacy: (1) Well Capitalized, (2) Adequately Capitalized,
                 (3) Undercapitalized, (4) Significantly Undercapitalized, and (5) Critically
                 Undercapitalized.

                 A PCA Directive is a formal enforcement action seeking corrective action or
                 compliance with the PCA statute with respect to an institution that falls
                 within any of the three categories of undercapitalized institutions.

Tier 1 (Core)    Defined in Part 325 of the FDIC Rules and Regulations, 12 C.F.R. section
Capital          325.2(v), as
                 The sum of:
                 • Common stockholder’s equity (common stock and related surplus,
                 undivided profits, disclosed capital reserves, foreign currency translation
                 adjustments, less net unrealized losses on available-for-sale securities with
                 readily determinable market values);
                 • Non-cumulative perpetual preferred stock; and
                 • Minority interest in consolidated subsidiaries;
                 Minus:
                 • Certain intangible assets;
                 • Identified losses;
                 • Investments in securities subsidiaries subject to section 337.4; and
                 • Deferred tax assets in excess of the limit set forth in section 325.5(g).

Troubled Asset   TARP is a program of the United States Department of the Treasury to
Relief Program   purchase assets and equity from financial institutions to strengthen the
(TARP)           financial sector. TARP was established under the Emergency Economic
                 Stabilization Act of 2008, which established the Office of Financial Stability
                 within the Department of the Treasury. Under TARP, Treasury will purchase
                 up to $250 billion of preferred shares from qualifying institutions as part of
                 the Capital Purchase Program.




                                           21
                                                                              Appendix 2
                             Glossary of Terms


Uniform Bank    The UBPR is an individual analysis of financial institution financial data and
Performance     ratios that includes extensive comparisons to peer group performance. The
Report (UBPR)   report is produced by the Federal Financial Institutions Examination Council
                for the use of banking supervisors, bankers, and the general public and is
                produced quarterly from Call Report data submitted by banks.

Uniform         Financial institution regulators and examiners use the Uniform Financial
Financial       Institutions Rating System (UFIRS) to evaluate a bank’s performance in six
Institutions    components represented by the CAMELS acronym: Capital adequacy, Asset
Rating System   quality, Management practices, Earnings performance, Liquidity position,
                and Sensitivity to market risk. Each component, and an overall composite
(UFIRS)
                score, is assigned a rating of 1 through 5, with 1 having the least regulatory
                concern and 5 having the greatest concern.




                                          22
                                                                        Appendix 3
                               Acronyms

ADC      Acquisition, Development, and Construction

ALLL     Allowance for Loan and Lease Losses

C&D      Cease and Desist Order

CAMELS   Capital, Asset Quality, Management, Earnings, Liquidity and Sensitivity to
         Market Risk

CRE      Commercial Real Estate

DIF      Deposit Insurance Fund

DRR      Division of Resolutions and Receiverships

DSC      Division of Supervision and Consumer Protection

FDI      Federal Deposit Insurance

FIL      Financial Institution Letter

GWSB     George Washington Savings Bank

IDFPR    Illinois Department of Financial and Professional Regulation

OIG      Office of Inspector General

PCA      Prompt Corrective Action

ROE      Report of Examination

TARP     Troubled Asset Relief Program

UBPR     Uniform Bank Performance Report

UFIRS    Uniform Financial Institutions Rating System




                                        23
                                                                                  Appendix 4
             Examiner Comments in Reports of Examination


                                                    ROE Dates    2005   2006   2008   2009
                      Deficiency/Risk
Concentration in CRE and ADC Loans                                               
Inadequate/Enhance Loan Underwriting                                               
 High Unfunded Loan Commitments                                                    
 Interest Reserves/Justification for Replenishing                                    
 Inadequate or Enhance Appraisal Program/Review                                        
 High Loan-to-Value                                                                  
Weak/Enhance Credit Administration                                               
 No aggregate limits or exceeded internal limits on CRE/ADC                        
 in relation to capital
 Increase oversight/monitoring/tracking of CRE/ADC                                
 concentration
 Track & Report to Board loan extension/renewal, construction                       
 projects out of balance, loan policy exception
 Loan presentation weaknesses                                                       
 Inadequate or the lack of global cash flow analysis/repayment                    
 capacity/borrower equity

 Interest rate shock analysis                                                       

 Update status memos/monitor construction and development                        
 projects
 Insufficient review and approval by the Loan Committee for                        
 extensions of maturities and granting of additional funds

 Revise or Adhere to loan policy                                                   
 Numerous loan technical exceptions such as outdated                              
 financial statements/insurance/collateral verification
 Inadequate/Enhance loan grading/monitoring system and                            
 ALLL methodology
Violations                                                                           
 Legal Lending Limit-State/Part 365 Contravention                                    
 Part 323-Appraisal Violation                                                         
 Part 364-Interagency S&S-Loan Documentation/Credit                                   
 Underwriting/Asset Quality Contravention
Asset Losses                                                                         
 Significant Loan Deterioration                                                    
Source: ROEs for GWSB.




                                                    24
                                                                                      Appendix 5

                                    Corporation Comments




Federal Deposit Insurance Corporation
  550 17th Street NW, Washington, D.C. 20429-9990              Division of Supervision and Consumer Protection

                                                                       October 8, 2010
TO:              Stephen Beard
                 Assistant Inspector General for Material Loss Reviews

                 /Signed/
FROM:            Sandra L. Thompson
                 Director

SUBJECT:         FDIC Response to the Draft Audit Report Entitled, In-Depth Review of the Failure of
                 George Washington Savings Bank, Orland Park, Illinois (Assignment No. 2010-041)

Pursuant to Section 38(k) of the Federal Deposit Insurance Act, as amended by the Dodd-Frank Wall
Street Reform and Consumer Protection Act, the Federal Deposit Insurance Corporation’s Office of
Inspector General (OIG) conducted an in-depth review of the failure of George Washington Savings
Bank (GWSB), Orland Park, Illinois, which failed on February 19, 2010. This memorandum is the
response of the Division of Supervision and Consumer Protection (DSC) to the OIG’s Draft Report
(Report) received on September 9, 2010.

GWSB failed primarily because of significant losses concentrated in commercial real estate (CRE) and
acquisition, development, and construction (ADC) lending without implementing adequate loan
underwriting and credit administration procedures commensurate with the bank’s risk profile. The
lack of diversification in GWSB’s portfolio and poor risk selection, coupled with weak risk
management practices, led to rapid deterioration in asset quality. Significant losses in the loan
portfolio ultimately depleted earnings and eroded capital.

From 2005 through February 2010, the Illinois Department of Financial and Profession Regulations
(IDFPR) conducted one examination and the FDIC conducted three examinations, along with offsite
monitoring activities. FDIC examiners consistently reported high CRE/ADC concentrations and made
recommendations to strengthen the bank’s risk management practices. The 2008 FDIC examination
found deterioration in asset quality and resulted in a downgrade in the component to a “3” rating.
Declining trends noted in 2009 offsite monitoring activities led the FDIC to accelerate the next
examination by several months. The 2009 FDIC examination found numerous extensions of loan
maturities and/or new loan funds had been granted to problem borrowers without the approval of
GWSB’s Executive Loan Committee. These activities masked the level of loan problems and
impacted the ability of FDIC’s offsite review to recognize the full extent of asset quality problems
prior to the onsite examination. Based on the results of the 2009 examination both the IDFPR and
FDIC pursued formal enforcement action.

DSC recognizes that strong supervisory attention is necessary for institutions with high CRE/ADC
concentrations, such as GWSB. DSC issued Interagency Guidance on CRE Monitoring in 2006 and a
Financial Institution Letter to banks on Managing Commercial Real Estate Concentrations in a
Challenging Environment in 2008 that re-emphasized the importance of robust credit risk-management
practices for institutions with concentrated CRE exposures and set forth broad supervisory expectations.

Thank you for the opportunity to review and comment on the Report.

                                                    25
